HHS/OIG, Audit - "Review of Title IV-E Training Costs Claimed by Maryland
for Calendar Years 1999 Through 2001," (A-03-06-00563)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Training Costs Claimed by Maryland
for Calendar Years 1999 Through 2001," (A-03-06-00563)
February 8, 2007
Complete Text of Report is available in PDF format (891 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Maryland’s claims for Title IV-E training costs complied with applicable Federal requirements.
Maryland’s claims for Title IV-E training costs did not always comply with Federal requirements. Maryland improperly overstated its Federal share of Title IV-E training costs by $3,247,975, including $2,869,228 in administrative and indirect costs allocated from cost centers that contained costs not allowable for an enhanced training rate and $378,747 in training costs for field service training of Department of Juvenile Justice juvenile counselors and youth supervisors not allowable under Title IV-E.
We recommended that Maryland refund to the Federal Government $3,247,975 in overstated Title IV-E claims, review Title IV-E training costs claimed subsequent to our audit period for the issues identified and make the appropriate adjustments, and strengthen internal controls to ensure that future training costs are claimed in accordance with Federal requirements. Maryland generally agreed.